HHS/OIG-Audit--"Audit of Eligiblity Under Title I Of The Ryan White Comprehensive AIDS Resources Emergency Act of 1990 -- New York Eligible Metropolitan Area, (CIN A-02-95-02517)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Eligibility Under Title I of the Ryan White Comprehensive AIDS Resources Emergency Act of 1990 -- New
York Eligible Metropolitan Area," (A-02-95-02517)
December 12, 1996
Complete
Text of Report is available in PDF format (2.49 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Ryan White Comprehensive AIDS Resources Emergency Act of 1990 (CARE Act) was created as a comprehensive response to
the Human Immunodeliciency Virus (HIV) epidemic and its impact on individuals, families, communities, cities and states.
The CARE Act was intended to establish services for HIV clients who would otherwise have no access to health care and to
provide emergency relief funding to communities with the highest number of reported AIDS cases, as confirmed by Department
of Health and Human Services (HHS), Centers for Disease Control and Prevention.
Under Title I of the CARE Act, the HHS, Public Health Service (PHS), Health Resources and Services Administration (HRSA),
awards grants to cities designated as Eligible Metropolitan Areas (EMAs). The EMAs are responsible for awarding funds and
monitoring local service providers. One of the largest EMAs is New York City. The New York EMA (NYEMA) consists of the
five boroughs of New York City, and Westchester, Rockland, and Putnam Counties. The New York City Department of Health
was designated as the local entity responsible for the administration of Ryan White funds for its geographic area of responsibility.
The NYEMA provides funding, through prime contracts, to service providers who provide Title I services to eligible HIV
infected individuals and their families. For the period April 4, 1995 - April 3, 1996 the 05 year, HRSA awarded the NYEMA
$93.6 million.
The objective of our audit was to determine whether the NYEMA, its contractors and service providers have adequate procedures
in place to assure that all CARE Act clients receiving services are individuals with HIV disease and their families.
Our review of 17 service providers, with 41 contracts totaling $12.6 million and covering a range of Title I services,
disclosed varying degrees of compliance with CARE Act eligibility criteria. At eight providers, with twenty-five contracts,
we found acceptable documentation in the case record to support positive HIV serostatus of clients receiving Title I services.
We considered acceptable documentation to include medical records, laboratory test results, and physician certifications.
At nine service providers with sixteen contracts totaling $2.9 million, documentation was considered unacceptable as no
form of acceptable evidence was found in the case records or made available for our review.